No. 19A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
MELANIE KELSAY,
Applicant,
v.
MATT ERNST,
Respondent.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
DAVID M. SHAPIRO
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-0711
david.shapiro@law.northwestern.edu
Counsel for Applicant Melanie Kelsay

October 30, 2019

No. 19A
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
MELANIE KELSAY,
Applicant,
v.
MATT ERNST,
Respondent.
________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
________
To the Honorable Neil M. Gorsuch, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Eighth Circuit:
Pursuant to this Court’s Rules 13.5, 22, and 30.3, Applicant Melanie Kelsay
requests a 30-day extension of time to file a petition for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Eighth Circuit in this case
to December 11, 2019.
As discussed herein, this case involves exceptionally important questions of
federal law concerning qualified immunity. Applicant requests this extension because
Counsel of Record David M. Shapiro has several proximate briefing deadlines and
other obligations requires additional time to research the factual record and to
conduct the level of analysis that aids this Court in determining whether to grant
certiorari.

1

In support of this request, Applicant states as follows:
1.

The United States Court of Appeals for the Eighth Circuit issued its

opinion on August 13, 2019. See Kelsay v. Ernst, 933 F.3d 975 (8th Cir. Aug. 13 2019)
(en banc) (attached hereto at Attachment A). The time for filing a petition would thus
expire on November 11, 2019 absent an extension. Consistent with Rule 13.5, this
application has been filed at least 10 days before that date. This Court has
jurisdiction over the case under 28 U.S.C. § 1254(1).
2.

This case arises from an encounter in the small town of Wymore,

Nebraska between Petitioner Melanie Kelsay and local law enforcement officers.
Respondent Matt Ernst, a Gage County Sheriff’s Deputy, arrived outside a pool
complex, where Ms. Kelsay had been swimming with her family. Kelsay’s older
daughter was near the pool exit doors yelling at a female patron whom the daughter
assumed had contacted the police. Kelsay started to walk toward her daughter, but
Ernst ran up behind Kelsay, grabbed her arm, and told her to “get back here.” In
response to Deputy Ernst grabbing Kelsay’s arm and commanding her to “get back
here,” Kelsay “stopped, turned around, and . . . told him, someone is talking shit to
my kid, I want to know what’s going on.” Kelsay, 933 F.3d at 986 (Smith, C.J.,
dissenting).
3.

At that time, Deputy Ernst “let go” of Kelsay’s arm. Deputy Ernst said

nothing in response to Kelsay’s explanation. Because Deputy Ernst “didn’t say
anything” to Kelsay in response, she “turned around and started walking back.”
Nevertheless, Deputy Ernst “ran up behind [Kelsay] and he grabbed [her] and

2

slammed [her] to the ground.” The maneuver—“like, a bear hug”—lifted Kelsay “off
the ground,” knocked her unconscious, and broke her collarbone. Id. at 986.
4.

Kelsay brought suit against Ernst and others under 42 U.S.C. 1983. As

to Kelsay’s Fourth Amendment excessive force claim as to Ernst, the district court
denied Ernst’s motion for summary judgment based on qualified immunity. Viewing
the facts in the light most favorable to Kelsay, the district court explicitly concluded
that at the time Ernst slammed Kelsay to the ground, she “was walking away from
police, and was not in a position to threaten witnesses or law enforcement.” Kelsay v.
Ernst, No. 4:15-CV-3077, 2017 WL 5953112, at *4 (D. Neb. May 19, 2017).
5.

Ernst noticed an interlocutory appeal to the United States Court of

Appeals for the Eighth Circuit. Kelsay v. Ernst, 905 F.3d 1081, 1084 (8th Cir. Sept.
27, 2018). In a divided decision accompanied by three separate opinions, the panel
reversed the district court as to Ernst, finding him entitled to qualified immunity as
a matter of law. Judge Beam concurred “advisedly.” Id. at 1085 (Beam, J.,
concurring). He concluded that “the slamming of [Kelsay] to the ground by the deputy
with force sufficient to fracture her shoulder was uncalled for given the nature of the
encounter underway.” Id. at 1085-86. Chief Judge Smith dissented. While recognizing
that police have a right to use “some” degree of force to effectuate a lawful arrest, the
panel dissent found it “obvious” that “a blind body slam of a comparatively slightly
built and nonviolent misdemeanant unreasonably increased the probability of injury
. . . . [and] [t]he amount of force applied was unreasonable.” Id. at 1086 (Smith, C.J.,
dissenting). The Chief Judge concluded that a “reasonable officer on the scene would

3

have known” that Ernst’s use of force was excessive in these circumstances. Id. at
1087.
6.

The Eighth Circuit granted rehearing en banc, and split 10-4 in favor of

reversal. The majority held that Ernst was entitled to qualified immunity. Chief
Judge Smith dissented, joined by Judges Kelly, Erickson, and Grasz, Chief Judge
Smith reasoned that the law was sufficiently clear “to have put a reasonable officer
on notice that the use of force against a non-threatening misdemeanant who was not
fleeing, resisting arrest, or ignoring other commands violates that individual’s right
to be free from excessive force.” Kelsay, 933 F.3d at 982 (Smith, C.J., dissenting).
7.

Judge Grasz also wrote a separate dissent from the en banc decision,

arguing that the court should have decided whether a constitutional violation
occurred before proceeding to the “clearly established law” prong of the qualified
immunity analysis. Id. at 987 (Grasz, J., dissenting).
8.

Applicant intends to file a petition for certiorari asking this Court to

resolve important federal questions, including whether qualified immunity shields a
police officer from liability when he slams to the ground an unarmed individual who
poses no threat to police or anyone else. The circuits are divided on this question. See
Ciolino v. Gikas, 861 F.3d 296 (1st Cir. 2017); Westfall v. Luna, 903 F.3d 534 (5th Cir.
2018); McCaig v. Raber, 515 F. A’ppx 551, 552-53 (6th Cir. 2013) (unpublished); Casey
v. City of Fed. Heights, 509 F.3d 1278, 1282 (10th Cir. 2007). Moreover, the split
results from a broader analytical inconsistency—whether a defendant can establish
an entitlement to qualified immunity by showing minute factual differences between

4

the case presently being litigated and an earlier case where the relevant circuit found
a constitutional violation.
9.

The case also concerns the question whether qualified immunity should

be narrowed or reconsidered. In recent years, a growing chorus of jurists and scholars
have registered their “disquiet over the kudzu-like creep of the modern [qualified]
immunity regime,” noting that it “smacks of unqualified impunity.” Zadeh v.
Robinson, 902 F.3d 483, 498 (5th Cir. 2018) (Willett, J., concurring). Neither the text
of 42 U.S.C. § 1983 nor the common law surrounding its enactment in 1871 recognized
qualified immunity. See, e.g., William Baude, Is Qualified Immunity Unlawful?, 106
CALIF. L. REV. 45, 55-61 (2018); James E. Pfander & Jonathan L. Hunt, Public Wrongs
and Private Bills: Indemnification and Government Accountability in the Early
Republic, 85 N.Y.U. L. REV. 1862, 1922-1929 (2010). Thus, Justice Thomas recently
noted that qualified immunity analysis “is no longer grounded in the common-law
backdrop against which Congress enacted the 1871 Act,” and has devolved into
“freewheeling policy choice[s],” Ziglar v. Abbasi, 137 S. Ct. 1843, 1871 (2017)
(Thomas, J., concurring). Justice Sotomayor has written, “a one-sided approach to
qualified immunity transforms the doctrine into an absolute shield for law
enforcement officers.” Kisela v. Hughes, 138 S. Ct. 1148, 1162 (2018) (Sotomayor, J.,
dissenting).
10.

Good cause exists for an extension of time to prepare a petition for a writ

of certiorari in this case. Counsel has had several other matters with proximate due
dates:

5

•

A reply brief in the U.S. Court of Appeals for the Second Circuit in Hayes
v. Dahkle, No. 19-650, due September 12, 2019;

•

A petition for rehearing en banc in the U.S. Court of Appeals for the
Seventh Circuit in Lockett v. Bonson, No. 19-1012, due October 2, 2019;

•

A reply brief in this Court in Bell v. Mississippi, No. 18-1500, filed
October 11, 2019; and

•

An opening brief in the U.S. Court of Appeals for the Seventh Circuit in
Reid v. Balota, No. 19-1396, due October 31, 2019.

11.

These litigation deadlines are in addition to counsel’s teaching

obligations as a full-time faculty member at Northwestern Pritzker School of Law.
Counsel’s final edits for an article forthcoming in the Harvard Law Review are due
on October 30, 2019, and counsel is directing a full-day symposium of the
Northwestern University Law Review to be held on November 8, 2019.
12.

Applicant has not previously sought an extension of time from this

13.

For these reasons, Applicant respectfully requests that the time to file a

Court.

petition for a writ of certiorari be extended to and including December 11, 2019.

6

Respectfully submitted,
s/David M. Shapiro_____________________
DAVID M. SHAPIRO
Counsel of Record
RODERICK & SOLANGE
MACARTHUR JUSTICE CENTER
NORTHWESTERN PRITZKER
SCHOOL OF LAW
375 East Chicago Avenue
Chicago, IL 60611
(312) 503-0711
david.shapiro@law.northwestern.edu
Counsel for Applicant Melanie Kelsay

October 30, 2019

7

